 OFFICE OF INSPECTOR GENERAL
CORPORATION FOR NATIONAL AND
     COMMUNITY SERVICE




      Pre-Audit Survey of the
   Boys & Girls Clubs of America
    Grant Number 0 1 SPHGA002

  OIG Audit Report Number 02-28
           July 3,2002




           Prepared by:

           CNCS OIG
      1201 New York Avenue
      Washington, DC 20525
                                                 Pre-Audit Survey of
                                            Boys & Girls Clubs of America
                                             Grant Number 0 1 SPHGA002

                                                     Table of Contents



OVERVIEW OF BOYS & GIRLS CLUBS OF AMERICA ............................................... 2

BACKGROUND OF BOYS & GIRLS CLUBS OF AMERICA ........................................2

OBJECTIVES. SCOPE.AND METHODOLOGY .............................................................3

RESULTS ............................................................................................................................ 4
Office of Inspector General                                                            CORPORATION
1201 New York Avenue. NW
                                                                                       FOR N A T I O N A L
Washington. DC 20525




   July 3,2002




   Peg Rosenberry, Director, Office of Grants Management
   Corporation for National and Community Service
   1201 New York Avenue
   Washington, DC 20525

   We performed a pre-audit survey of Boys & Girls Clubs of America, Grant Number
   01SPHGA002. The primary purpose of this survey was to provide a preliminary
   assessment of:

       The grant award and terms;
       Findings from the most recent A-133 audit;
       Fiscal or program issues raised by CNCS site visits.

   We were also to report on the recommended scope of additional audit procedures to be
   performed at the Grantee.

   Overview of Boys & Girls Clubs of America

   Boys & Girls Clubs of America is a non-profit organization whose mission is to inspire
   and enable all young people, especially those from disadvantaged circumstances, to
   realize their full potential as productive, responsible and caring citizens.

   The overall goal for the Indian Country Prevention and Service Pilot Program is to
   provide a full range of Boys & Girls Club programs to American Indian youth on
   approximately ten to fifteen American Indian lands, with an emphasis on S M R T Moves
   drug and alcohol prevention services and on CNCS service programs.

   Background

   The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
   the National and Community Service Act of 1990, established the Corporation for
   National and Community Service.
The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to state commissions, nonprofit entities, tribes and territories to assist in the
creation of fill and part time national and community service programs. Through these
grantees, members perform service to meet the educational, human, environmental, and
public safety needs throughout the nation, especially addressing those needs related to
poverty. In return for this service, eligible members receive a stipend, accident insurance,
personal liability insurance and automobile insurance, free meals at host institutions and
physical examinations.

Boys & Girls Clubs of America (B&GCA) is a federally chartered, national organization
that was formed to promote the health, social, educational, vocational, and character
development of young people throughout the United States. Each club has its own
independent board of directors, which controls the local Boys & Girls Club, its program,
and staff. B&GCA, the national organization, does not exercise supervision, direction, or
control of its local member clubs.

Objectives, Scope, and Methodology

The engagement scope was to provide an assessment of the grant and site visit
information and the systems and procedures in place at the Corporation's headquarters
and for monitoring the fiscal activity. The primary purpose of this pre-audit survey was
to provide a preliminary assessment of:

   The amount, term and grant provisions;
   The results of A-1 33 audits;
   Results of CNCS site visits.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Grantee.

Our survey included the following procedures:

   reviewing the grant award, its provisions, the detailed grant proposal and budget;

   reviewing OMB Circular A- 133 reports and;

   obtaining information from CNCS site visits and from discussions with CNCS Office
   of Grants Management.

Our procedures were performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. We were not engaged to, and did
not perform, an audit of any financial statements, and the procedures described above
were not sufficient to express an opinion on the controls at the Grantee, or on its
compliance with applicable laws, regulations, contracts and grants, or the allowability of
grant costs incurred. Accordingly, we do not express an opinion on any such financial
    statements, or on the Grantee's controls or compliance. Had we performed additional
    procedures, other matters might have come to our attention that would have been
    reported.

    Results

    We recommend that a desk review be performed to compare the costs submitted on the
    Financial Status Reports (FSRs) to the Grantee's books and to review the invoices
    submitted by the subcontractor First Pic. The basis for performing a desk review includes
    the following information:

       1. The earmark funds were awarded for one year and the amount of the grant was
          $2,495,000. Of that amount 13.1 percent, or approximately $2 18,000, are indirect
          costs under the cognizance of the Department of Justice.
       2. The A- 133 report for fiscal year ending December 3 1,2001 includes no reportable
          conditions, findings or material weaknesses and the auditee was identified as low
          risk.
       3. Financial Status Reports (FSR)s have been submitted timely.
       4. The B&GCA is an established organization with almost $65,000,000 in federal
          grant awards in its fiscal year ending December 3 1,2001.
       5. The proposed budget shows that CNCS grant funds would be awarded to 54
          subgrantees. Each subgrant award was $25,000 to $50,000. These amounts are
          not considered material enough to audit the subgrantees. We will rely on the A-
           133 audit results that indicate the internal controls are in place and operational at
          the Grantee and monitoring is performed at subgrantees.

    This report is intended solely for the use of the Office of inspector General and the
    Corporation for National and Community Service.




*   Teny Bathen
    Acting Inspector General
    Corporation for National and Community Service
    Washington, D.C.



    Copy to:

    Wendy Zenker, COO
    Gary Kowalczyk, Director, Planning & Program Integration
    Hank Oltmann, Director, Special Program Operations
 Office of Inspector General                                                               CORPORATION
 1201 New York Avenue, NW
                                                                                           FOR NATIONAL
 Washington, DC 20525
                                                                                            SERVICE

MEMORANDUM


DATE:          July 3,2002

TO:            Peg Rosenberry, Director
               CNCS Office of Grants Management

FROM:          Terry Bathen


SUBJECT:      OIG Final Report 02-28: Pre-Audit Survey of the Boys & Girls Clubs of
              America Grant No. 01SPHGA002


Attached is the final report on the Pre-Audit Survey of the Boys & Girls Clubs of America
Grant No. OISPHGA002. Based on the pre-audit survey we will perform a desk review of the
grant costs. If you have any questions pertaining to this report, please contact me on extension
446.

Attachment

Copy to:
Wendy Zenker, Chief Operating Officer
Gary Kowalczyk, Director, Planning & Program Integration
Hank Oltmann, Director, Special Program Operations
